                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

11                                    CLOSEOUT MEMORANDUM

     TO: AIGI       File Number: I96120063                                         Date: 16 May 2002

     Subject: Closeout Memo                                                                  Page 1 of 1




I         There was no closeout written at the time this case was closed. The following information was
          extracted from the file in conformance with standard closeout documents.

          Our office was informed that the subject' was alleged to have misused state endowment and federal
          grant and contract funds for running his personal business. The subject was indicted in February
          1998 based on OIG referral. The subject pleaded2guilty in state court to a felony charge3and paid
          $42,000.00 in fines and restitution. USA0 in the subject's state declined federal prosecution. A
          federal agency suspended the subject after indictment and debarred the subject and three companies
          based on their guilty plea. The subject's university and NSF removed the subject from all NSF
          grants. In March of 1999 the university moved to remove the subject. The university returned
          $160,93 1 to NSF for misuse of grant funds on two NSF grants.

          The attached documents constitute the closeout for this case.




            Dhiraj Pradhan, Texas A&M University
            1 1/24/98
          3
            Abuse of Official Capacity
-       -
    a   . rediff.com US edition: Prof gets 3 months in jail for abuse of position
             ,-•
                                                                                                                        Page 1of 3




                                            f gets 3-month term for abusing position


                                        A former computer sciences professor who held an endowed chair at the
                                        Texas A8rM Universityin Bryan-College Station, TX, is scheduled
                                                                                                  . .. .   to start
                                        a t h e month jail term next week for a crime he claims he did not comm~t.

                                        Professor Dhiraj Pradhan..   told. mifaanthat
                                                                            .. .      he accepted
                                                                                            rr-
                                                                                                  the jail
                                                                                                        1
                                                                                                           term in a
                                                                                                            J-J.--
                                        plea bargain agreement wth the mulct attorney orrlce, slnce ne ala nor
                                        expect a fair trial in the small southern Texan town with a "puritanicalview
                                        otthe world.

                                        "My lawyers advised me that I would be convicted if I went on trial,"
                                        Professor Pradhan said from his home at Gllege Station. "I was told that I
                                        would end up being in jail for a year or so and then go through a lengthy
                                        appeals process in Houston. Or I could admit that I did wrong. They
                                        would throw me in jail for a couple of months, but after that I would be

                                  34"
                  $%$&: ;x g w; Lawyers representing Professor Pradhan and the university were not
                  ' 'Y " " ' '
            t&?y&*&  a
                      d-2,, f'*" available for comment.
                              *
             I %%ge+.-,   a




                                        The university brought its charges against Professor Pradhan, who had
                                        unsuccessfullytried to start a labor union at the university, based on a fairly
                                        recent law, 'Abuse of Official Capacity,' that was instituted in 1996 by
                                        Governor George W Bush.

                                        The university charged that last summer Professor Pradhan used the
                                        school's photocopying machine to make 2,000 copies of an award-winning
                                        article he had written at a time when his em~lovmenthad been terminated.
                                                                                                              -   .-.

                                        It was also said that after he was terminated: Professor Pradhan used a
                                        calling card earlier assigned him by the university.

                                        Professor Pradhan who is 51, stated he was still drawing a salary from the
                                        school at that time and that he was going to use his research money to pay
                                        for the copies. He added he sought the advice of the head of the computer
                                        science department, Professor Wei Zhao, to make the photocopies.

                                        In a May 4,1999 memorandum, Professor Wei sought to clarify from
                                        Professor Pradhan as to why the latter wanted to make 2,000 copies of the
                                        particular article.

                                        "I replied to his (Wa'k)questions. I told him that if I don't hear from you,
                                        then I am assuming everydung is OK," Professor Pradhan said.
                                                                                                            Page 2 of 3
A   . rediff.com
       . . ...   U edition: Prof gets 3 months in jail for abuse of position


                           "Twomonths went by and nothing happened. They didn't come back to

                               fessor Pradhan says he took that as a sign that he could use the
                                 rsiVs equipment to make copies. On the evening of December 15,
                                 fficers of BryanS local sheriff's office turned up at his home,
                                  uffed him in his son's presence and then drove him in a state
                                      nt car to the county jail.

                                     hint theywere going to amst me or else I could have w g e d
                           for my lawyer to be present," Professor Pradhan said.

                                       't have to do this. They could have asked me to surrender at the
                                       .That would have been the civilized way to do it. But that was
                           not their intention."

                           & spent three days in jail until a bond was ~ o s t e dfor his release. The
                           court seized his passport. In a plea bargaining arrangement later, he agreed
                                       ntence that starts next week

                           Professor Pradhan feels the university rushed in to get him arrested
                                        feared he was about to flee the country. The ~rofessor,who
                                          m Cuttack, had made arrangements to take up a temporary
                                          at the Indian Institute of Technology in Kanpur. He was
                                          India on December 26,1999.

                                        the US for 31 years.       was hired in 1992 bythe Texas
                           A m University. In all the years that he worked at TAMU, he was
                                         highest paid professor. At the time of his termination last
                                        wing a salary of approximately $ 185,000.

                                              the university started in 1996. At that time,in an incident
                                               e press, he sent an e-mail to 600 faculty members
                                               rm a union. ("I didn't realize that the law in Texas
                                                          m forming a union," he said.) His
                                                 t was to counter the university's new ruling that called
                                                 son to go through a post-tenure review process.

                                                   after the university started to harass him. His
                                                    from his office while he was awayon a conference in


                                                      denied his charges in press reports.

                                                   arged him with misusing approximately $100,000
                                                     released in association with a course that the
                                                    in California in 1996. In the faJl of 1997, the
                           university suspended him Later, a federal judge ordered TAMU to
                                                      of 1998, indictments were brought against     hirn.
      p   rediff.com
           < .-      US edition: Prof gets 3 months in jail for abuse of position                                Page 3 of 3

:7-

                               Eventually, in 1999, he was terminated from the university.

                                  still has a civil case pending in a federal court. He said he brought the
                               case against the university on grounds of wrongful termination. That case
                                     to start in May.

                                   ecting on his career, especially prior to his appointment at TAMU, he
                                    "Things were good for most of the time.

                                Ultimately, I should have looked at the deal here (TAMLI)a lot more
                                arefully," he said. "When the deal is so good, so sweet, one should be
                                 reful. They gave me everything, they gave me the hlghest salary. I should
                                ave known there were potential problems here."

                                 ext: Rakesh Mathur's Karma Yoga

                                                                      Tell us what you think about this report
                                   HOME I NEWS I BUSINESS I MONEY I SPORTS I MOVIES 1 CHAT 1 INFOTECH 1 TRAVEL
                                   SINGLES 1 NEWSLINKS I BOOK SHOP 1 MUSICSHOP I GIFT SHOP I HOTEL BOOKINGS
                                      AIRIRAIL I WEATHER I MILLENNIUM I BROADBAND I E-CARDS I EDUCATION
                                                  HOMEPAGES I FREE EMAIL I 0 3 N E S T S I FEEDBACK
